UO/J±0ou4         TcdJ    ± O:S'.   Aa.   ou• o   *.I.   I 01j                       .          -   -                '



  00E F 1325,8
  (08-93)
  United States Goverment                                                                     Department of Energy

  memorandum
          DATE:
                          August 13, 2007                                     Audit Report Number: OAS-L-07-19
     REPLY TO
     ATTN OF:             IG-32 (A07PR059)

     SUBJECT:             Audit of Executive Compensation at Selected Office of Science Sites

            TO:           Chief Operating, Officer, Office of Science


                          INTRODUCTION AND OBJECTIVE

                          As part of a Department of Energy-wide audit of executive compensation, we
                          reviewed seven Office of Science sites. Specifically, we reviewed executive
                         compensation costs incurred ~,r claim~.- fr- F".•l•- Y. rs 2003, 2   , and 2005 at -
                         Argonne National Laboratory (Argonne), Brookhaven National Laboratory
                         (Brookhaven), Lawrence Berkeley National Laboratory (LBNL), Oak Ridge Institute
                         for Science and Education, Oak Ridge National Laboratory, Princeton Plasma Physics
                         Laboratory, and Thomas Jefferson National Accelerator Facility. We also considered
                         work that the Defense Contract Audit Agency had performed for executive
                         compensation in their prior audits of Pacific Northwest National Laboratory.

                         The amount of executive compensation that can be reimbursed to Department of
                         Energy (Department) contractors is limited by legislation, regulations, and contract
                         terms. For example, reimbursable compensation is limited to the annual cap
                         determined by the Administrator, Office of Federal Procurement Policy (OFPP). In
                         addition, Department of Energy Acquisition Regulations, Federal Acquisition
                         Regulations, Department policies and guidance, as well as contract provisions
                         establish limitations and guidelines for determining whether executive compensation
                         is reasonable and allowable. Generally, executive compensation includes salaries,
                         bonuses, incentive compensation, pension contributions, health benefits, arid other
                         fringe benefits.

                         The objective of our audit was to determine whether executive compensation
                         reimbursed to contractors was allowable, consistent with contract terms, and
                         conformed with applicable Federal requirements and guidance.

                         CONCLUSIONS AND OBSERVATIONS

                         For the Office of Science sites we reviewed, we found that executive compensation
                         reimbursed to contractors did not exceed the annual cap determined by the
                         Administrator, OFPP, and the contractors complied with applicable provisions of
                         procurement regulations, Department policies and guidance, and their contracts.
  However, at two sites, Argonne and Brookhaven, we identified questioned costs
  related to executive compensation. For Argonne, operated by the University of
  Chicago, we questioned $414,867 consisting of $60,346 for chauffeurs, $253,632
                                                                                       for
  fringe benefit costs associated with unallowable salary costs, and $100,889 for the
  salary and fringe benefits of an Argonne executive. For Brookhaven, operated
                                                                                    by
  Brookhaven Science Associates, we questioned $31,472 consisting of
                                                                          $10,727 for an
  executive's salary in excess of the approved salary ceiling and $20,745
                                                                           for fringe
  benefit costs associated with unallowable salary costs.

 We issued separate reports to the Managers of the Argonne and Brookhaven
                                                                                site
 offices providing details of our questioned costs and recommending that the
 responsible contracting officers determine the allowability of our questioned
                                                                                costs and
 recover costs determined to be unallowable. We also recommended that the
 contracting officers determine whether costs, similar to those identified in
                                                                              our audit,
 were claimed after September 30, 2005, and recover costs determined to be
 unallowable.

 During the period covered by our audit, the Department reimbursed the University
                                                                                        of
 California, the contractor for LBNL, for the cost of the University's Office of
laboratorv Management (LMO). whichý ov...'.              "
                                                        !.   to..
                                                              - Althugh within       -
applicable OFPP caps and consistent with Department policies, procedures, and
,ontract terms, hisome instances, LMO executives were compensated at rates
                                                                                   and
received increases that were higher than other offices of the University. Even
                                                                                  though
all LMO costs were charged to Department contracts, the Department was
                                                                              not
involved in determining executive compensation levels and increases for LMO
executives. We suggest that, as a condition for future reimbursement, the
                                                                             contracting
officer for LBNL review and approve the reasonableness of compensation levels
                                                                                      and
annual increases for LMO executives.

SCOPE AND METHODOLOGY

 The Department-wide audit was conducted from July 2006 to July 2007
                                                                            at the Office
 of Management, Department support offices and site offices, and 13 contractor
 Office of Science sites included in the audit were: Argonne National Laboratory,sites.
                                                                                       in
 Argonne, Illinois; Brookhaven National Laboratory in Upton, New York; Lawrence
 Berkeley National Laboratory in Berkeley, California; Oak Ridge Institute
                                                                               for
 and Education and Oak Ridge National Laboratory in Oak Ridge, Tennessee; Science
 Princeton Plasma Physics Laboratory in Princeton, New Jersey; and, Thomas
                                                                                  Jefferson
 National Accelerator Facility in Newport News, Virginia. In addition,
                                                                         at Pacific
Northwest National Laboratory, we ascertained whether the Defense
                                                                        Contract
 Agency had covered executive compensation in their prior audits. The scope Audit
                                                                                  of the
Department-wide audit covered executive compensation costs incurred
                                                                          and claimed
for Fiscal Years 2003, 2004, and 2005 and included the compensation of about
200 executives including facility directors, deputy directors, key personnel,
                                                                                and other
senior management employees. Compensation included salaries, bonuses,
                                                                              incentive
compensation, pension contributions, health benefits, other fringe benefits,
                                                                               travel and
relocation reimbursements, and any other payments made to the executive
                                                                             or on behalf
of the executive.


                                    2
08/15/07   WED 16:21 FAX R55 241 3•J1           -       U •   .    ----   .--.-             --   -.



               To accomplish the audit objective, we identified executives and their compensation;
               verified compensation to accounting records and supporting documentation; and,
               tested compliance with legislation, regulations, Department policies and guidance, and
               contracts.

               We conducted the audit in.accordance with generally accepted Government auditing
               standards for performance audits and included tests of internal controls and
               compliance with laws and regulations to the extent necessary to satisfy the audit
               objective. Because our review was limited, it would not necessarily have disclosed all
               internal control deficiencies that may have existed at the time of our audit. Also, we
               considered the establishment of performance measures in accordance with the
               Government Performanceand Results Act of 1993, as they related to the audit
               objective, and found that the Department had not established performance measures
               specifically addressing executive compensation. We relied on computer-processed
               data to accomplish the audit objective. When appropriate, we performed limited test
               work of data reliability during our audit and determined that we could rely on the
               computer-processed data.

               We appreciate the cooperation of your staff during our review. Because no formal
               recommendations are being made in this report, a formal response is not required.




                                                          edrick G. Pieper, Director
                                                        Energy, Science and Environmental
                                                          Audits Division
                                                        Office of Inspector General

              cc:   Director, Office of Management
                    Team Leader, Audit Liaison Team, CF-1.2
                    Audit Liaison, MA-70
                    Audit Liaison, SC-32.1
                    Audit Liaison, SC-CH
                    Audit Liaison, SC-OR
                    Audit Liaison, SC-ASO
                    Audit Liaison, SC-BHSO
                    Audit Liaison, SC-PSO
                    Audit Liaison, SC-TJSO




                                                    3
